GR-40-98-006
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Grants to the Atlanta, Georgia, Police Department
Grant Nos. 95-CC-WX-0349, 95-CL-WX-0116, and 97-CL-WX-0071
GR-40-98-006
April 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, audited five grants awarded by the
U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS),
to the Atlanta, Georgia, Police Department (APD). The APD received one grant totaling
$2,787,385 to hire 38 police officers under the Accelerated Hiring, Education, and
Deployment (AHEAD) program; two grants totaling $6,750,000 to hire 90 police officers
under the Universal Hiring Program (UHP); and two grants totaling $3,367,794 to redeploy
the equivalent of 144.2 police officers under the Making Officer Redeployment Effective
(MORE) program. COPS awarded the grants to substantially increase the number of officers
interacting directly with members of the community.
Due to the Atlanta Police Department's failure to meet the terms and conditions of the
grant, we are questioning $2,695,569 in funds received under the AHEAD/UHP and MORE
grants. In addition, the remaining $10,209,610 in grant funds should be withheld until the
Atlanta Police Department establishes a community policing program. 
In brief, our audit determined that the APD:


- did not substantially increase its community policing efforts as described in its
    grant applications. 
- claimed $837,638 in questionable salaries, overtime, and fringe benefits. 
- did not hire some civilians or purchase any of the computers authorized by the first
    MORE grant. As such, $2,338,131 could be put to better use.
- supplanted Federal funds of $5,187,376 under the AHEAD and UHP grants.
- used $1,859,302 previously budgeted for law enforcement as the local match.
- did not plan to retain the officers after Federal funds expired. As such, costs of
    $6,164,594 for the AHEAD, UHP and MORE grants were unsupported.


 
#####